WAIVER

Supreme Court of the United States

No. 19-420
Alfred Risien Hamman ve University of Central Florida Board of
Trustees, etc,
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O° Please enter my appearance as Counsel of Record for all respondents.”

& There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents):

University of Central Florida Board of Trustees

District Boa:

 

@

Tam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response wi

 
   

Signature

 

Date: 10/9/19

(Type or print) Name. Patrick M, Muldowney
fi Mr. OMs. O Mrs. D Miss

Firm. Baker & Hostetler LLP

 

Address____200 $. Orange Ave., Suite 2300

City & State. Orlando, FL Zip 32801

Phone 407-649-4000
SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Governor Ron DeSantis Attorney General Moody Patrick Muldowney

State of Florida State of Florida BakerHostetler

The Capitol PL-01 The Capitol SunTrust Center

400 S. Monroe St. Tallahassee, F'L 82399 200 S. Orange Ave. Ste. 2300
Tall, F1 32399 Orlando, F1. 32801

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
